NO._______________

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA
MARIA TERESA DUARTE GODINEZ
Petitioner-Defendant
v.
UNITED STATES OF AMERICA
Respondent
On Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit.
Fifth Circuit Case No. 20-60596
CERTIFICATE OF COMPLIANCE
I hereby certify that the accompanying Petition for Writ of Certiorari in
Godinez vs. United States, complies with the word count limitations of Supreme
Court Rule 33(g) in that it contains 4586 words, based on the word-count function
of Microsoft Word, including footnotes and excluding material not required to be
county by Rule 33(d).

Date: June 28, 2021.
Respectfully submitted,

/s/ Peter H. Barrett
PETER H. BARRETT
P. & W. BARRETT LAWYERS, PLLC
2202C 25th Ave, C-3
Gulfport, MS 39501
Phone: (228) 864-9885
Attorney for Defendant Petitioner

